               Procedures Regarding the Failure to Pay Tax
                Penalty Result in Inconsistent Treatment of
              Taxpayers and Hundreds of Millions of Dollars
                            in Lost Revenue

                                    March 2005

                       Reference Number: 2005-30-052




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                       March 18, 2005


      MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                     ENFORCEMENT



      FROM:                          Pamela J. Gardiner
                                     Deputy Inspector General for Audit

      SUBJECT:                       Final Audit Report - Procedures Regarding the Failure to Pay
                                     Tax Penalty Result in Inconsistent Treatment of Taxpayers and
                                     Hundreds of Millions of Dollars in Lost Revenue
                                     (Audit # 200330041)


      This report presents the results of our review to determine whether the Internal
      Revenue Service (IRS) could and should charge interest on taxpayer accounts
      containing accrued Failure to Pay (FTP) tax penalties.
      In summary, the Congress established the FTP tax penalty to encourage taxpayers to
      pay their Federal income taxes timely and authorized the IRS to charge this penalty on
      tax accounts for which taxes are not paid when due. The FTP tax penalty generally
      accrues at a rate of one-half of 1 percent per month on the unpaid tax and continues to
      accrue until the penalty reaches a maximum of 25 percent. This penalty is charged only
      on the unpaid tax and not on unpaid penalties and interest.
      Currently, most calculations and assessments for the FTP tax penalty are made by the
      IRS computer system. The computer makes an initial assessment of the penalty to the
      taxpayer’s account on the IRS Master File1 at the time the original tax liability is
      assessed. After this, the penalty continues to accrue (grow) each month but is usually
      not assessed2 to the taxpayer’s account until all other assessed liabilities (tax, penalties,
      and interest which have actually been posted to the account) are paid in full and there is


      1
        The Master File is the IRS database that stores various types of taxpayer account information. This database
      includes individual, business, and employee plans and exempt organizations data.
      2
        An amount is not considered assessed until it is officially recorded as a liability on a taxpayer’s account on the IRS
      Master File.
                                                         2

a credit available in the taxpayer’s account.3 In other words, the computer keeps track
of how much FTP tax penalty the taxpayer owes, but most of the penalty is never
officially assessed to the taxpayer’s account on the Master File until there are funds in
the account to pay all or part of the accrued penalty. Even then, only the portion of the
accrued FTP tax penalty that can be paid with the credit available in the account is
officially assessed. The rest remains accrued but not assessed.
This is significant for two reasons. First, IRS computers are not programmed to charge
interest on accrued FTP tax penalties. By not assessing these penalties periodically,
the IRS has foregone the interest associated with them. Internal Revenue Code (I.R.C.)
Section (§) 6601(e)(2)(A) requires the IRS to charge interest on FTP tax penalties just
as it does on other unpaid taxes and penalties. It states “interest shall be imposed” on
these penalties. We estimate that, if the IRS had assessed all penalty accruals at least
quarterly, it would have assessed over $817 million in interest on accrued penalties
during Calendar Year (CY) 2002. Second, this practice results in inconsistent treatment
of some taxpayers who have to pay interest on the penalties. These taxpayers, some in
hardship situations such as victims of natural disasters or military personnel serving in
combat zones, have accounts that have to be administered by the IRS manually (rather
than by computer). The FTP tax penalties on these accounts are computed manually
because certain variables associated with the accounts are not programmed into IRS
computers. IRS personnel periodically calculate and manually assess the penalties.
Because the manually computed FTP tax penalties are periodically assessed, interest is
charged on the FTP tax penalties on these accounts. The IRS Mission Statement
requires that it apply the tax law with integrity and fairness to all. However, we estimate
for those accounts for which the computer did not administer the penalties in CYs 2000
and 2001, the IRS charged $8.7 million in interest through December 31, 2003, on
126,061 manually administered taxpayer accounts.
To ensure all taxpayers are treated equitably and all monies owed the Federal
Government are correctly assessed, we recommended the Commissioner, Small
Business/Self-Employed (SB/SE) Division, request programming changes that would
cause accrued FTP tax penalties to be assessed on a periodic basis. We also
recommended the Commissioner work with the Department of the Treasury Assistant
Secretary for Tax Policy to request clarifying legislation regarding the need for separate
notices to be issued to taxpayers each time FTP tax penalties are assessed and interest
is charged on the penalties. Finally, we recommended the Commissioner ensure
notices include the proper wording to inform taxpayers that interest is being charged on
the FTP tax penalties until they are fully paid.
Management’s Response: The Commissioner, SB/SE Division, agreed with our
conclusion that IRS computers are not assessing interest on monthly FTP penalty
accruals and that these accruals would have to be assessed for related interest to be
charged. The Commissioner also acknowledged the inequity between interest


3
 Any balance due notice sent to the taxpayer contains the full amount of the FTP tax penalty (assessed and
unassessed).
                                             3

assessments on manually computed accounts and those accounts for which the penalty
is systemically generated. Further, the Commissioner agreed to implement corrective
actions for our three recommendations. The Commissioner also concurred with our
estimate of the potential increase in revenue, while stating that it is not possible to
separately track additional dollars collected based on additional interest assessed on
FTP tax penalty accruals.
However, the Commissioner disagreed that legislative changes are needed due to
conflicting legal interpretations or that such legislation would be clarifying. The
Commissioner also stated that corrective action is significantly impaired by systemic
limitations on account maintenance, retention, calculation, and overall capacity. In
addition, the Commissioner noted that the monthly assessment of FTP tax penalties
and related interest is made more difficult because a notice and demand for payment of
tax, interest, and penalty must be mailed to the taxpayer for the interest on the penalty
to be legally due and payable. In the Commissioner’s opinion, the volume of notices
required would compromise the IRS’ notice issuance capacity and increase taxpayer
call-ins, which would affect the IRS’ ability to respond to general inquiries.
Management’s complete response to the draft report is included as Appendix VII.
Office of Audit Comment: Although the IRS generally agreed with our findings and
recommendations, it disagreed that legislative changes are needed due to conflicting
legal interpretations regarding I.R.C § 6601. We do not necessarily disagree with the
IRS’ legal interpretation that a notice must be issued on each FTP tax penalty before
interest can be charged. However, we do recognize, as the IRS Chief Counsel stated in
a May 3, 2001, memorandum, that an argument could be made for assessing interest
on additional penalty amounts without sending additional notices each time the penalty
is assessed. Regardless of the interpretation, the fact remains that the IRS’ procedure
is to charge interest on the penalty only after a notice has been issued. As long as the
IRS does not have the capacity and resources to issue tax notices on FTP tax penalties
as they become due each month, some taxpayers will be treated inconsistently and the
IRS will not charge the proper amount of interest legally due on those accounts.
Assessing the FTP penalty accruals once a year in coordination with the reminder
notices is a start, but a stronger commitment is necessary to correct the problems
outlined in our report. Because of this fact, we strongly emphasize that the IRS should
work with the Department of the Treasury Assistant Secretary for Tax Policy to request
legislation stating that an original notice and demand will suffice for putting taxpayers on
notice for interest charges on future FTP tax penalty assessments. Without an
amendment or change to the I.R.C., the IRS’ ability to make periodic assessments, and
thus charge interest on those assessments, will continue to be limited by the resources
available to issue more notices. While we believe our recommendation is worthwhile,
we do not intend to elevate our disagreement concerning it to the Department of the
Treasury for resolution.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
                                           4

Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (215) 516-2341.
 Procedures Regarding the Failure to Pay Tax Penalty Result in Inconsistent Treatment
          of Taxpayers and Hundreds of Millions of Dollars in Lost Revenue




                                                  Table of Contents


Background ............................................................................................... Page 1
The Internal Revenue Service Should Periodically Assess and
Charge Interest on All Failure to Pay Tax Penalties .................................. Page 3
         Recommendations 1 and 2: .............................................................Page 7
         Recommendation 3: .........................................................................Page 8

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 9
Appendix II – Major Contributors to This Report ....................................... Page 11
Appendix III – Report Distribution List ....................................................... Page 12
Appendix IV – Outcome Measures............................................................ Page 13
Appendix V – Master File Transcript for Computer Assessed Failure
             to Pay Tax Penalty ............................................................. Page 15
Appendix VI – Master File Transcript for Manually Assessed Failure
              to Pay Tax Penalty ............................................................. Page 17
Appendix VII – Management’s Response to the Draft Report ................... Page 19
  Procedures Regarding the Failure to Pay Tax Penalty Result in Inconsistent Treatment
           of Taxpayers and Hundreds of Millions of Dollars in Lost Revenue

                                  To encourage taxpayers to pay their Federal income taxes
Background
                                  timely, the Congress established the Failure to Pay (FTP)
                                  tax penalty and authorized the Internal Revenue Service
                                  (IRS) to charge this penalty on tax accounts for which taxes
                                  are not paid when due. The FTP tax penalty is different
                                  from most other penalties in that it continues to accrue
                                  (grow) over time while other penalties are usually one-time
                                  assessments. The FTP tax penalty generally accrues at a
                                  rate of one-half of 1 percent per month on the unpaid tax
                                  and continues to accrue until the penalty reaches a
                                  maximum of 25 percent. This penalty is charged only on
                                  the unpaid tax and not on unpaid penalties and interest.
                                  Currently, in administering the FTP tax penalty, most
                                  calculations and assessments are made by the IRS computer
                                  system. The computer makes an initial assessment of the
                                  penalty to the taxpayer’s account on the IRS’ Master File1 at
                                  the time the original tax liability is assessed. After this, the
                                  penalty continues to accrue each month but is usually never
                                  assessed2 to the taxpayer’s account until all other assessed
                                  liabilities (tax, penalties, and interest that have actually been
                                  posted to the account) are paid in full and there is a credit
                                  available in the taxpayer’s account.3
                                  In other words, the computer keeps track of how much FTP
                                  tax penalty the taxpayer owes, but most of the penalty is
                                  never officially assessed to the taxpayer’s account on the
                                  Master File until there are funds in the account to pay all or
                                  part of the accrued FTP tax penalty. Even then, only the
                                  portion of the accrued FTP tax penalty that can be paid with
                                  the credit available in the account is officially assessed. The
                                  rest remains accrued but not assessed. Appendix V shows a
                                  simulated transcript of a fictitious tax account for which the
                                  computer keeps track of the accruals and makes the
                                  assessments.



                                  1
                                    The Master File is the IRS database that stores various types of
                                  taxpayer account information. This database includes individual,
                                  business, and employee plans and exempt organizations data.
                                  2
                                    An amount is not considered assessed until it is officially recorded as a
                                  liability on a taxpayer’s account on the IRS Master File.
                                  3
                                    Any balance due notice sent to the taxpayer contains the full amount of
                                  the FTP tax penalty (assessed and unassessed).
                                                                                                     Page 1
Procedures Regarding the Failure to Pay Tax Penalty Result in Inconsistent Treatment
         of Taxpayers and Hundreds of Millions of Dollars in Lost Revenue

                                Table 1 reflects the volume and amount of accrued FTP tax
                                penalties owed by taxpayers at the end of each quarter in
                                Calendar Year (CY) 2002. The information was taken from
                                IRS Tax Records Categorization (TRCAT) files.4 As can be
                                seen, the volumes and amounts of these penalties are very
                                substantial and fairly consistent from quarter to quarter.
                                                 Table 1: FTP Tax Penalty Data (CY 2002)

                                                          Number of Taxpayer       Accrued FTP Tax
                                     Quarter Ending          Accounts5                 Penalties
                                    March 2002            18,093,631              $14,178,035,126
                                    June 2002             19,100,646              $14,170,433,175
                                    September 2002        18,960,234              $14,173,436,864
                                    December 2002         18,768,418              $14,351,786,404
                                Source: IRS TRCAT files.

                                This is significant for two reasons. First, IRS computers are
                                not programmed to charge interest on accrued FTP tax
                                penalties. By not assessing these penalties periodically, the
                                IRS has foregone the interest associated with them. Second,
                                there are some taxpayers whose accounts have to be
                                manually administered by the IRS (rather than by
                                computer). The FTP tax penalties on these accounts are
                                computed manually because certain variables associated
                                with the accounts are not programmed into IRS computers.
                                IRS personnel periodically calculate and manually assess
                                the penalties. Because the FTP tax penalties are
                                periodically assessed on the manually administered
                                accounts, interest is charged on the penalties from the time
                                of their assessment. This report discusses these two issues
                                in depth.



                                4
                                  TRCAT files are created as part of the Accounts Receivable Dollar
                                Inventory. These files are generated on a quarterly basis from both the
                                Individual Master File (IMF) and Business Master File (BMF). The
                                IMF is the IRS database that maintains transactions or records of
                                individual tax accounts. The BMF is the IRS database that consists of
                                Federal tax-related transactions and accounts for businesses. These
                                include employment taxes, income taxes on businesses, and excise
                                taxes.
                                5
                                  This column represents 23,865,069 unique taxpayer accounts. Some
                                taxpayer accounts can be duplicated from quarter to quarter if the
                                penalties remain unpaid.
                                                                                                 Page 2
   Procedures Regarding the Failure to Pay Tax Penalty Result in Inconsistent Treatment
            of Taxpayers and Hundreds of Millions of Dollars in Lost Revenue

                                   This review was performed at the Ogden, Utah, IRS
                                   Campus6 during the period October 2003 through
                                   September 2004 using tax return information filed
                                   nationwide. The audit was performed in accordance with
                                   Government Auditing Standards. Detailed information on
                                   our audit objective, scope, and methodology is presented in
                                   Appendix I. Major contributors to the report are listed in
                                   Appendix II.
                                   The IRS practice of accruing FTP tax penalties, rather than
The Internal Revenue Service
                                   periodically assessing them, results in no interest charges for
Should Periodically Assess and
                                   most of these penalties. IRS computers are programmed to
Charge Interest on All Failure
                                   charge interest on the penalties only after they are assessed.
to Pay Tax Penalties
                                   A credit must exist in an account before any accrued penalty
                                   is assessed.7 Even then, the accrued penalty is only assessed
                                   to the extent of the credit in the account. Interest is never
                                   charged on the accrued penalty, even after assessment,
                                   because the penalty is basically fully paid at the time it is
                                   assessed.
                                   Internal Revenue Code (I.R.C.) Section (§) 6601(e)(2)(A)
                                   requires the IRS to charge interest on FTP tax penalties just
                                   as it does on other unpaid taxes and penalties. It states that
                                   “interest shall be imposed” (emphasis added) on these
                                   penalties. In addition, the IRS Mission Statement requires
                                   that it apply the tax law with integrity and fairness to all.
                                   However, the current procedure of not assessing accrued
                                   FTP tax penalties on a periodic basis, and thus not charging
                                   interest on the penalties, creates an inequity for those
                                   taxpayers who do pay the penalties timely and an even
                                   greater inequity for taxpayers whose accounts have to be
                                   manually administered by the IRS.
                                   Some reasons why the IRS has not periodically assessed and
                                   charged interest on FTP tax penalties include the following:
                                   •   The IRS has asserted that assessing the accrued penalties
                                       periodically would create a capacity problem for its


                                   6
                                     The data processing arm of the IRS. The campuses process paper and
                                   electronic submissions, correct errors, and forward data to the
                                   Computing Centers for analysis and posting to taxpayer accounts.
                                   7
                                     In addition to assessing the penalty when the module balance becomes
                                   negative, the computer will assess the penalty if a subsequent tax
                                   assessment posts to the specific account or module.
                                                                                                  Page 3
Procedures Regarding the Failure to Pay Tax Penalty Result in Inconsistent Treatment
         of Taxpayers and Hundreds of Millions of Dollars in Lost Revenue

                                    Master File computers. However, we were advised by an
                                    IRS Computer Specialist that the penalties could be
                                    periodically assessed as often as every 6 weeks.
                                •   Even if the penalties are assessed periodically, there are
                                    still conflicting legal interpretations regarding whether
                                    interest can be charged without issuing new notices each
                                    time the penalties are assessed. For example, the IRS
                                    Chief Counsel stated in a memorandum dated
                                    May 3, 2001, that an argument could be made for
                                    assessing interest on additional penalty amounts without
                                    sending additional notices each time the penalty is
                                    assessed. There are also concerns regarding whether the
                                    IRS’ notice issuance facilities could meet the demand to
                                    issue these additional notices.
                                    I.R.C. § 6601(e)(2)(A) states “interest shall be imposed”
                                    on FTP tax penalties from the date of notice and demand
                                    to the date of payment. However, it is not clear whether
                                    it was the Congress’ intent for the penalties, and the
                                    interest on those penalties, to begin with the initial
                                    notices sent to taxpayers by the IRS or whether
                                    subsequent notices are required each time the accrued
                                    penalties are assessed.
                                    To ensure the IRS is in strict compliance with the law,
                                    the IRS Office of Chief Counsel has determined that,
                                    until clarifying legislation is provided, the IRS should
                                    send new notices each time the FTP tax penalties are
                                    assessed before interest can be charged on the penalties.
                                As a result of IRS procedures regarding FTP tax penalties,
                                the Federal Government loses hundreds of millions of
                                dollars in interest each year and thousands of taxpayers are
                                treated inconsistently from other taxpayers.
                                Interest lost
                                Based on information we obtained from IRS TRCAT files,
                                over $14 billion in accrued FTP tax penalties existed on
                                taxpayer accounts at the end of CY 2002. The
                                $14 billion figure was relatively constant at the end of each
                                quarter in CY 2002. If the IRS changed its present
                                procedures from assessing accrued FTP tax penalties when a
                                credit exists in an account to assessing the accruals on a
                                quarterly basis, we estimate the IRS would have charged
                                                                                       Page 4
Procedures Regarding the Failure to Pay Tax Penalty Result in Inconsistent Treatment
         of Taxpayers and Hundreds of Millions of Dollars in Lost Revenue

                                over $817 million in interest on accrued penalties that would
                                have been assessed during CY 2002 (see Table 2).
                                                Table 2: Potential Interest Charges (CY 2002)

                                                    Unassessed
                                                     Accrued          Interest Rate for         Potential
                                    Quarter         Penalties at        Subsequent              Interest
                                    Ending         Quarter’s End          Quarter               Charges
                                    March         $14,178,035,126    1.50% (4/02-6/02)     $212,670,527
                                    2002
                                    June 2002     $14,170,433,175    1.50% (7/02-9/02)     $212,556,498
                                    September     $14,173,436,864    1.50% (10/02-12/02)   $212,601,553
                                    2002
                                    December      $14,351,786,404    1.25% (1/03-3/03)     $179,397,330
                                    2002
                                    Total                                                  $817,225,908
                                Source: TRCAT files and IRS Interest Rate Tables.

                                Because our CY 2002 FTP tax penalty data may have
                                contained some taxpayer liabilities that would never be
                                collected, we selected a statistical sample of 385 tax
                                accounts to determine how many taxpayer accounts had
                                been fully paid or were still in an active collection status.8
                                We found that 160 of the 385 accounts were fully paid,
                                17 were in current installment agreements, and 2 had at
                                least 3 payments made in the last year. Based on our
                                analysis, we estimate that the IRS could expect to collect
                                almost one-half of the interest it charges by assessing FTP
                                tax penalties on a periodic basis. Our margin of error for
                                this estimate was +5 percent (41.5 to 51.5 percent).
                                As stated earlier, there are conflicting legal interpretations
                                regarding whether new notices must be sent each time the
                                FTP tax penalties are assessed to facilitate charging interest
                                on the penalties. In addition, concerns have been raised
                                regarding whether the IRS’ notice issuance facilities could
                                meet the demand to issue notices each time the accrued FTP




                                8
                                  We defined active collection status as those taxpayers in a current
                                installment agreement or accounts having at least three payments made
                                on the account during the last year.
                                                                                                   Page 5
Procedures Regarding the Failure to Pay Tax Penalty Result in Inconsistent Treatment
         of Taxpayers and Hundreds of Millions of Dollars in Lost Revenue

                                tax penalties are assessed, if they are assessed periodically.9
                                Currently, the IRS sends a number of balance due notices
                                within the first few months of when a tax liability is
                                established. After that, only one notice is sent per year.
                                These notices now show the total FTP tax penalty amounts
                                and do not distinguish between assessed and accrued
                                amounts. Even if the IRS determines it does not have the
                                capacity to issue more notices for assessed FTP tax
                                penalties, the penalties could be assessed at the time each of
                                these notices is generated.
                                Inconsistent treatment of taxpayers
                                Normally, IRS computer programs automatically calculate
                                the FTP tax penalty amounts. However, there are situations
                                in which penalties are prohibited or limited to specific
                                periods and must be computed manually by IRS employees.
                                In these situations, an IRS employee enters a code into the
                                computer to “restrict” the computer from calculating the
                                penalty amounts. For example, qualifying taxpayers
                                affected by natural disasters or military personnel serving in
                                combat zones receive an extension of time to file and pay
                                their taxes, extending the FTP tax penalty start dates.
                                Taxpayers in bankruptcy status have the FTP tax penalties
                                suspended from computation. Appendices V and VI show
                                simulated transcripts of fictitious tax accounts with FTP tax
                                penalties accrued by the computer and manually assessed,
                                respectively.
                                Because the FTP tax penalties on these restricted accounts
                                are manually assessed and not computed by the IRS
                                computers, there are no accrued penalties on the accounts.
                                The penalties are periodically calculated and manually
                                assessed, and interest is charged on the periodic
                                assessments. This creates an inconsistency because these
                                taxpayers are charged interest on the manually assessed
                                penalties while taxpayers with computer accrued penalties
                                are not charged interest.
                                We identified a population of 126,061 Individual Master
                                File (IMF) and Business Master File (BMF) taxpayer

                                9
                                 If the Congress provides clarifying legislation regarding the need for
                                new notices each time FTP tax penalties are assessed, the ability of the
                                IRS to meet the demand for the notices may no longer be of concern.
                                                                                                  Page 6
Procedures Regarding the Failure to Pay Tax Penalty Result in Inconsistent Treatment
         of Taxpayers and Hundreds of Millions of Dollars in Lost Revenue

                                accounts that contained FTP tax penalties manually assessed
                                in CYs 2001 and 2002 for amounts more than $50. We
                                selected and reviewed a statistically valid sample of 100 of
                                these accounts and determined that $6,909 in interest was
                                charged on the manually assessed FTP tax penalties through
                                December 31, 2003. Based on these results, we estimate
                                that the 126,061 taxpayer accounts contained over
                                $8.7 million in interest charges through December 31, 2003.
                                If these same accounts were not restricted, IRS computers
                                would have accrued the FTP tax penalties, but interest
                                would not have been charged on the penalties.

                                Recommendations

                                The Commissioner, Small Business/Self-Employed (SB/SE)
                                Division, should:
                                1. Request programming changes that would cause accrued
                                   FTP tax penalties to be assessed on a periodic basis (as
                                   often as possible based upon the IRS’ ability to issue
                                   additional notices). This would cause interest to be
                                   charged on the assessed FTP tax penalties during the
                                   time period in which they are not paid and would be
                                   consistent with the way interest is charged on other
                                   unpaid liabilities.
                                Management’s Response: The Commissioner, SB/SE
                                Division, will submit a system change request to have FTP
                                tax penalties assessed on BMF and IMF annual reminder
                                notices, effective January 2006.
                                Office of Audit Comment: Assessing the FTP tax penalty
                                accruals once a year in coordination with the reminder
                                notices is a start, but a stronger commitment is necessary to
                                correct the problems outlined in our report.
                                2. Work with the Department of the Treasury Assistant
                                   Secretary for Tax Policy to request clarifying legislation
                                   regarding the need for separate notices to be issued to
                                   taxpayers each time FTP tax penalties are assessed and
                                   interest is charged on the penalties. If and when such
                                   legislation is enacted, request programming changes that
                                   would cause accrued FTP tax penalties to be assessed
                                   quarterly or more often, if possible.

                                                                                       Page 7
Procedures Regarding the Failure to Pay Tax Penalty Result in Inconsistent Treatment
         of Taxpayers and Hundreds of Millions of Dollars in Lost Revenue

                                Management’s Response: The Commissioner, SB/SE
                                Division, and Office of Chief Counsel will review the
                                applicable statutory provisions and IRS procedures for
                                assessing interest on the FTP tax penalty and providing
                                notices to taxpayers. Following this review, they will
                                discuss all available options, including possible statutory
                                amendments, and proceed with a course that is in the best
                                interest of sound tax administration.
                                Office of Audit Comment: Regardless of the results of this
                                review, the fact remains that the IRS’ procedure is to charge
                                interest on the FTP tax penalty only after a notice has been
                                issued. As long as the IRS does not have the capacity and
                                resources to issue tax notices on FTP tax penalties as they
                                become due each month, some taxpayers will be treated
                                inconsistently and the IRS will not charge the proper
                                amount of interest legally due on those accounts. We
                                strongly emphasize that the IRS should work with the
                                Department of the Treasury Assistant Secretary for Tax
                                Policy to request legislation stating that an original notice
                                and demand will suffice for putting taxpayers on notice for
                                interest charges on future FTP tax penalty assessments.
                                Without an amendment or change to the I.R.C., the IRS’
                                ability to make periodic assessments, and thus charge
                                interest on those assessments, will continue to be limited by
                                the resources available to issue more notices.
                                3. Ensure notices containing FTP tax penalty assessments
                                   include information informing taxpayers that interest is
                                   being charged on the FTP tax penalties until they are
                                   fully paid. Currently, the stuffers (Information About
                                   Your Notice, Penalty and Interest, Notice 746; and
                                   Interest and Penalty Information, Notice 433) included
                                   with the notices do not inform the taxpayers that interest
                                   is charged on FTP tax penalties.
                                Management’s Response: On the next scheduled revision,
                                Notices 746 and 433 will be revised to indicate that interest
                                is charged on assessed FTP tax penalties.




                                                                                       Page 8
     Procedures Regarding the Failure to Pay Tax Penalty Result in Inconsistent Treatment
              of Taxpayers and Hundreds of Millions of Dollars in Lost Revenue

                                                                                                    Appendix I


                          Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the Internal Revenue Service (IRS) could and
should charge interest on taxpayer accounts containing accrued Failure to Pay (FTP) tax
penalties. To accomplish our objective, we:
I.       Determined IRS policies and procedures for charging interest on FTP tax penalties and
         whether these procedures were consistent with applicable tax laws. This was done
         through interviews with IRS management, analysis of relevant tax law, and analysis of
         IRS policies, procedures, and training material.
II.      Determined the amount of FTP tax penalties accrued on taxpayer accounts during the
         period January 1, 2002, through December 31, 2002. This information was obtained
         through analysis of IRS Tax Records Categorization (TRCAT)1 files.
III.     Determined the amount of interest not being charged on taxpayer accounts with accrued
         FTP tax penalties. This information was also obtained through analysis of IRS TRCAT
         files containing data during the period January 1, 2002, through December 31, 2002.
IV.      Determined whether the additional revenues were greater than the associated costs to
         establish procedures for charging interest on accrued FTP tax penalties. We also
         estimated the collectibility of the additional revenues. This was done by selecting a
         statistical sample2 of 385 taxpayer accounts from a population of 23,865,069 taxpayer
         accounts containing FTP tax penalties accrued during Calendar Year (CY) 2002. In
         selecting our sample, we used a confidence level of 95 percent, a precision rate of
         +5 percent, and an expected error rate of 50 percent for the population of 23,865,069.
         We reviewed the 385 taxpayer accounts and determined whether they were fully paid or
         in active collection status.3




1
  TRCAT files are created as part of the Accounts Receivable Dollar Inventory. These files are generated on a
quarterly basis from both the Individual Master File (IMF) and Business Master File (BMF). The IMF is the IRS
database that maintains transactions or records of individual tax accounts. The BMF is the IRS database that
consists of Federal tax-related transactions and accounts for businesses. These include employment taxes, income
taxes on businesses, and excise taxes.
2
  We selected statistical samples because we wanted to project our results over the entire population of cases.
3
  We defined active collection status as those taxpayers in a current installment agreement or accounts having at
least three payments made on the account during the last year.
                                                                                                          Page 9
    Procedures Regarding the Failure to Pay Tax Penalty Result in Inconsistent Treatment
             of Taxpayers and Hundreds of Millions of Dollars in Lost Revenue

V.      Determined the number of taxpayer accounts for which the computer was restricted from
        assessing the FTP tax penalties during CY 2002. This information was obtained through
        analysis of IRS Master File4 data for the period January 1, 2002, through
        December 31, 2002.
VI.     Determined the amount of interest being charged on taxpayer accounts for which the FTP
        tax penalties were being manually assessed. We selected a statistical sample of
        100 taxpayer accounts from a population of 126,061 accounts for which the FTP tax
        penalties were manually assessed during CYs 2001 and 2002. From this sample, we
        estimated that $8.7 million in interest was charged on manually assessed FTP tax
        penalties through December 31, 2003. Our computed precision for this estimate was
        between $5.4 and $12 million. In selecting our sample, we used a confidence level of
        95 percent, a precision rate of +10 percent, and an expected error rate of 50 percent for
        the population of 126,061 accounts.




4
  The Master File is the IRS database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data.




                                                                                                           Page 10
  Procedures Regarding the Failure to Pay Tax Penalty Result in Inconsistent Treatment
           of Taxpayers and Hundreds of Millions of Dollars in Lost Revenue

                                                                                  Appendix II


                           Major Contributors to This Report

Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Richard J. Dagliolo, Director
Parker F. Pearson, Director
Kyle R. Andersen, Audit Manager
Robert Jenness, Acting Audit Manager
Larry Madsen, Lead Auditor
Douglas C. Barneck, Senior Auditor
Roy E. Thompson, Senior Auditor
Arlene Feskanich, Information Technology Specialist




                                                                                       Page 11
  Procedures Regarding the Failure to Pay Tax Penalty Result in Inconsistent Treatment
           of Taxpayers and Hundreds of Millions of Dollars in Lost Revenue

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Chief Information Officer OS:CIO
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Communications, Government Liaison, and Disclosure, Small Business/Self-Employed
Division SE:S:CGL&D
Director, Accounts Management, Customer Account Services, Wage and Investment Division
SE:W:CAS:AM
Director, Payment Compliance, Small Business/Self-Employed Division SE:S:C:CP:PC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                   Page 12
    Procedures Regarding the Failure to Pay Tax Penalty Result in Inconsistent Treatment
             of Taxpayers and Hundreds of Millions of Dollars in Lost Revenue

                                                                                                  Appendix IV


                                            Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•    Increased Revenue – Potential; $1,873,454,946 in interest charges on 9,904,004 taxpayer
     accounts (see page 3).
Methodology Used to Measure the Reported Benefit:
We obtained Internal Revenue Service (IRS) Tax Records Categorization (TRCAT)1 files for the
4 quarters in Calendar Year (CY) 2002. After analyzing this information, we determined the
average quarterly accrued Failure to Pay (FTP) tax penalty amount was $14,218,422,892. We
also determined the average interest rate for the last 20 quarters (5 years) was 1.5875 percent
(6.35 percent annual rate). Multiplying the $14,218,422,892 by the 1.5875 percent interest rate
for 20 quarters (5 years) equals $4,514,349,268. This is the estimated interest amount the IRS
could charge on the accrued FTP tax penalties if the penalties were assessed quarterly over a
5-year period.
The CY 2002 data included accrued FTP tax penalties on 23,865,069 unique taxpayer accounts.
Because at least some of these accounts might not be collectible, we selected a statistical sample
of 385 of the 23,865,069 taxpayer accounts. We analyzed the 385 accounts to determine the
numbers that were either fully paid or in an active collection status.2 Of the 3853 taxpayer
accounts, 179 (46.5 percent) were fully paid or in an active collection status. Our margin of error
for this estimate was +5 percent (41.5 to 51.5 percent).




1
  TRCAT files are created as part of the Accounts Receivable Dollar Inventory. These files are generated on a
quarterly basis from both the Individual Master File and Business Master File. The Master File is the IRS database
that stores various types of taxpayer account information. This database includes individual, business, and
employee plans and exempt organizations data.
2
  We defined active collection status as those taxpayers in a current installment agreement or accounts having at
least three payments made on the account during the last year.
3
  The computation size for our statistical sample included a confidence level of 95 percent, a precision rate of
+5 percent, and an expected error rate of 50 percent for the population of 23,865,069 taxpayer accounts.
                                                                                                          Page 13
    Procedures Regarding the Failure to Pay Tax Penalty Result in Inconsistent Treatment
             of Taxpayers and Hundreds of Millions of Dollars in Lost Revenue

To be conservative, we multiplied $4,514,349,268 by 41.5 percent to obtain a reduced figure of
$1,873,454,946 in interest charges over a 5-year period.4 We also reduced the
23,865,069 taxpayer accounts by the 41.5 percent figure to produce a new figure of
9,904,004 taxpayer accounts.




4
 It is possible that some of the additional revenue generated by periodically assessing and charging interest on the
FTP tax penalty would be offset by the cost of issuing additional notices to taxpayers. We did not reduce our
outcomes for the following reasons: a) we reduced our projections by the margin of error for our sample size and
b) if the Congress provides clarifying legislation regarding the need for new notices each time FTP tax penalties are
assessed, the cost of the notices may no longer be of concern.
                                                                                                             Page 14
    Procedures Regarding the Failure to Pay Tax Penalty Result in Inconsistent Treatment
             of Taxpayers and Hundreds of Millions of Dollars in Lost Revenue

                                                                                                    Appendix V


                                 Master File1 Transcript for
                        Computer Assessed Failure to Pay Tax Penalty

ACCOUNT NO 123-45-6789
NAME CONT- ABCD
****************************************************************
                                                                                            This figure is the assessed module
                                                                                            balance. It is the sum of the seven
**************************                                                                  assessed transactions below. The
* TAX PERIOD 30   200112 *                                                                  transaction codes represent the
**************************                                                                  following:
                                                                                            150 – Tax Liability
                                                                                            806 – Withholding Credit
                                                                                            170 – Estimated Tax Penalty
MF MOD BAL-                                   3,295.00                                      166 – Failure to File Penalty
ACCRUED INTEREST-                               400.00          02162004                    276 – Computer Assessed Failure
ACCRUED PENALTY-                                640.00          02162004                    to Pay Tax Penalty
                                                                                            196 – Computer Assessed Interest
                                                                                            670 – Payment

        150 06032002                     8,000.00

        806 04152002                     4,000.00-                                          This $640.00 figure is the Accrued
                                                                                            Failure to Pay (FTP) tax penalty. It
                                                                                            is shown separately from the seven
        170 06032002                          50.00                                         assessed transactions to the left.
                                                                                            No interest is charged on the
        166 06032002                        175.00                                          accrued FTP tax penalties.


        276 06032002                          40.00
                                                                                            This specific $40 transaction is the
                                                                                            initial assessed FTP tax penalty.
        196 06032002                          30.00                                         As the penalty accrues (grows)
                                                                                            after the initial assessment, it is
                                                                                            reflected in the accrued penalty
        670 03312003                     1,000.00-                                          figure. Interest is charged on this
                                                                                            initial assessment but is not
                                                                                            charged on future accruals.


This is a simulated Internal Revenue Service (IRS) taxpayer account transcript. Although the
taxpayer data are fictitious, the transcript illustrates how the IRS computer accrues and assesses
Failure to Pay (FTP) tax penalties. In this example, the taxpayer filed late and did not pay the


1
 The Master File is the Internal Revenue Service database that stores various types of taxpayer account information.
This database includes individual, business, and employee plans and exempt organizations data.
                                                                                                             Page 15
    Procedures Regarding the Failure to Pay Tax Penalty Result in Inconsistent Treatment
             of Taxpayers and Hundreds of Millions of Dollars in Lost Revenue

amount due. The IRS computer assessed an FTP tax penalty of $40 at the time the return was
processed on June 3, 2002. After that initial assessment, the FTP tax penalty amount grew
to $640. This $640 amount is shown separately from the assessed transactions. The number
02162004 signifies that the $640 figure is computed to February 16, 2004. The $640 figure will
continue to accrue (grow) until the tax is fully paid or the 25 percent maximum penalty is
reached. The accrued amount will not be assessed until the module balance becomes negative.2
For example, if a payment of $3,395.00 were made, $100.00 ($3,295 - $3,395 = -$100) in FTP
tax penalty would be assessed and the accrued amount would be reduced to $540. Interest is
charged on the initial $40 assessment but is not charged after that point. This is true because the
IRS computer is not programmed to charge interest on penalties in an accrued status. When the
accrued penalties are assessed, they are only assessed to the extent that a credit exists in the
account. When the accrued penalty is assessed, it is basically already fully paid and is not
subject to interest.




2
  In addition to assessing the penalty when the module balance becomes negative, the computer will assess the
penalty if a subsequent tax assessment posts to the specific account or module.



                                                                                                          Page 16
    Procedures Regarding the Failure to Pay Tax Penalty Result in Inconsistent Treatment
             of Taxpayers and Hundreds of Millions of Dollars in Lost Revenue

                                                                                                   Appendix VI



                                  Master File1 Transcript for
                         Manually Assessed Failure to Pay Tax Penalty

ACCOUNT NO 123-45-6789
NAME CONT- ABCD
****************************************************************

**************************                                                                    This figure is the assessed module
                                                                                              balance. It is the sum of the
* TAX PERIOD 30   200112 *                                                                    10 assessed transactions below.
**************************                                                                    The transaction codes represent the
                                                                                              following:
                                                                                              150 – Tax Liability
MF MOD BAL-                                   3,935.00                                        806 – Withholding Credit
                                                                                              170 – Estimated Tax Penalty
ACCRUED INTEREST-                               400.00 02162004                               166 – Failure to File Penalty
ACCRUED PENALTY-                                   .00 02162004                               270 – Manually Assessed Failure
                                                                                              to Pay Tax Penalty
                                                                                              196 – Computer Assessed Interest
                                                                                              670 – Payment
        150 06032002                     8,000.00

        806 04152002                     4,000.00-                                            The accrued Failure to Pay tax
                                                                                              penalty amount is $.00 on this
        170 06032002                          50.00                                           account because the Internal
                                                                                              Revenue Service (IRS) computer is
                                                                                              not computing the penalty. The
        166 06032002                        175.00                                            penalty amounts are periodically
                                                                                              being manually assessed.
        270 06032002                          40.00
                                                                                              The initial $40 Failure to Pay tax
        196 06032002                          30.00                                           penalty on this account was
                                                                                              assessed with a special restricting
        270 07082002                          20.00                                           transaction (transaction code 270)
                                                                                              that takes the computation of the
                                                                                              penalty away from the computer.
        270 08122002                          20.00                                           The penalty must now be manually
                                                                                              computed and assessed by an IRS
        670 03312003                     1,000.00-                                            employee.


        270 02162004                        600.00


1
 The Master File is the Internal Revenue Service database that stores various types of taxpayer account information.
This database includes individual, business, and employee plans and exempt organizations data.
                                                                                                            Page 17
  Procedures Regarding the Failure to Pay Tax Penalty Result in Inconsistent Treatment
           of Taxpayers and Hundreds of Millions of Dollars in Lost Revenue

This is a simulated Internal Revenue Service taxpayer account transcript. Although the taxpayer
data are fictitious, the transcript illustrates how the Failure to Pay (FTP) tax penalty is assessed
when an account has been restricted from the computer. In this example, the taxpayer filed late
and did not pay the amount due. Because it was determined the computer could not accurately
compute the penalty on this account, the initial FTP tax penalty of $40 was manually assessed.
As the penalty accrues (grows), further manual computations and assessments must be made.
Because the amounts are being assessed periodically and not accrued by the computer, the
computer is charging interest on the assessments from the time they are assessed until they are
paid. For example, interest is being charged on the $40 assessment from June 3, 2002, on the
first $20 assessment from July 8, 2002, on the second $20 assessment from August 12, 2002, and
on the $600 assessment from February 16, 2004.




                                                                                            Page 18
Procedures Regarding the Failure to Pay Tax Penalty Result in Inconsistent Treatment
         of Taxpayers and Hundreds of Millions of Dollars in Lost Revenue

                                                                       Appendix VII


                 Management’s Response to the Draft Report




                                                                              Page 19
Procedures Regarding the Failure to Pay Tax Penalty Result in Inconsistent Treatment
         of Taxpayers and Hundreds of Millions of Dollars in Lost Revenue




                                                                              Page 20
Procedures Regarding the Failure to Pay Tax Penalty Result in Inconsistent Treatment
         of Taxpayers and Hundreds of Millions of Dollars in Lost Revenue




                                                                              Page 21
Procedures Regarding the Failure to Pay Tax Penalty Result in Inconsistent Treatment
         of Taxpayers and Hundreds of Millions of Dollars in Lost Revenue




                                                                              Page 22
